Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives


                          Progress and Challenges
For Release on Delivery
Expected at
10:00 a.m. EDT
Thursday
May 31, 2012              With FAA’s Facility
                          Consolidation Effort
CC-2012-021




                          Statement of
                          Lou E. Dixon
                          Principal Assistant Inspector General
                           for Auditing and Evaluation
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

Thank you for inviting me to testify on the Federal Aviation Administration’s (FAA)
air traffic facility realignment and consolidation effort, a key initiative for the Next
Generation Air Transportation System (NextGen). FAA operates thousands of
manned and unmanned air traffic control facilities that rely on ground-based
technology, including 21 en route centers and 540 Terminal Radar Approach Control
(TRACON) facilities and air traffic control towers—many of which have outlived
their useful lives and cannot take advantage of new technologies. This aging
infrastructure, along with the development of NextGen, prompted FAA to establish
the NextGen Future Facilities Special Program Management Office (SPMO). Last
year, SPMO developed a plan to realign and consolidate the Agency’s air traffic
facility network that could fundamentally change the way FAA operates the National
Airspace System (NAS) and significantly impact FAA’s modernization efforts and air
traffic workforce.

At the request of this Subcommittee, we initiated an audit to review FAA’s
realignment and consolidation activities and identify any associated challenges. My
testimony today is based on this ongoing work and will focus on (1) FAA’s plan for
large-scale realignments and consolidations of its air traffic facility network, (2) key
challenges that FAA faces in executing its plan, and (3) actions the Agency can take
in the near term to successfully consolidate its facilities.

IN SUMMARY
FAA’s realignment and consolidation plan, which it formalized last November, calls
for consolidating en route centers and TRACONs into large, integrated facilities over
the next 2 decades, beginning with a new integrated facility for managing airspace in
the New York/New Jersey/Philadelphia metropolitan areas. However, FAA is early in
its planning and has delayed making a final decision until next May on where to build
the first facility. Regardless, FAA will still need to align consolidation plans with
ongoing construction projects, make technical decisions that could significantly alter
the cost and schedules for other modernization programs, finalize project cost
estimates, and address associated workforce and community issues. Although FAA’s
consolidation plans are evolving, a number of near-term actions could better position
the Agency for success. These actions include incorporating lessons learned from
prior consolidation efforts, developing metrics to identify and track anticipated
benefits, and determining how best to keep Congress and other stakeholders informed
as the effort progresses.




                                                                                      1
BACKGROUND
According to FAA, the average age for an en route center is 49 years, while the
average age of a TRACON is 28 years. 1 In 2008, we reported that 59 percent of FAA
facilities were over 30 years old and identified structural deficiencies and
maintenance-related issues at many facilities. 2 Consistent with our observations, FAA
reported in 2010 that 83 percent of its facilities were in either poor or fair condition
and that the infrastructure at some facilities would not support NextGen and other
modernization initiatives.

Sustaining the existing air traffic control system requires the Agency to spend a
significant portion of its capital budget to replace and maintain these aging facilities
and related infrastructure. In fiscal year 2012, FAA plans to spend $104 million to
replace or improve TRACONs and air traffic control towers, $47 million to maintain
en route centers, and $78 million to sustain electrical power systems.

On September 1, 2010, the FAA Administrator took an important step towards
replacing this aging infrastructure by establishing the NextGen Future Facilities
SPMO. 3 SPMO is responsible for planning large-scale facility realignments and
consolidations, developing requirements for these facilities, conducting relevant
analyses, and coordinating these efforts with the Agency’s other modernization
programs.

FAA’S REALIGNMENT AND CONSOLIDATION PLAN FOCUSES ON
LARGE-SCALE EFFORTS
FAA plans to realign and consolidate its en route centers and TRACONs into large,
integrated facilities over the next 2 decades, beginning with facilities managing the
New York/New Jersey/Philadelphia airspace. While these initial plans were approved
last November, FAA has yet to make several key operational and logistical decisions
regarding the first facility, including where to build it. Moreover, FAA has delayed a
final approval for constructing the first site until next May, which will impact FAA’s
consolidation schedule for other locations.

FAA Has Initial Approval for Integrating Facilities in the Northeast
FAA’s long-term plan, approved by its Joint Resources Council (JRC) in November
2011, represents considerable progress since our 2008 review, when the Agency’s
focus was primarily on the short term and on sustaining the existing infrastructure.
The plan would divide the NAS into six geographic segments within the contiguous

1
    En route centers guide airplanes flying at high altitudes through large sections of airspace, while TRACONs guide aircraft
    as they approach or leave airspace within 40 miles of an airport.
2
    OIG Report No. AV-2009-012, “FAA’s Management and Maintenance of Air Traffic Control Facilities,”
    December 15, 2008. OIG correspondence and reports are available on our Web site at http://www.oig.dot.gov/.
3
    FAA National Policy Order 1110.154, “Establishment of Federal Aviation Administration Next Generation Facilities
    Special Program Management Office,” September 1, 2010.

                                                                                                                            2
United States. Under the current plan, work on a new segment would begin every
other year, with four to five facilities per segment, and all segments would be
completed by 2034. Within each segment, TRACONs and en route centers would be
combined into 1 of 2 types of facilities—each of which could house over
1,200 employees—based on operational requirements, airspace responsibility, and
geographic location (see attachment 1):
    • Integrated Control Facilities—which would provide expanded terminal airspace
      functions by combining TRACON operations with some en route center
      operations.
    • High-Altitude Control Facilities (“High-Ops”)—which would control high-altitude
      airspace currently monitored by en route centers, with some facilities monitoring
      oceanic air traffic.
As part of the initial approval of the overall plan, JRC also approved plans to realign
and consolidate facilities starting in the Northeast. This segment will consolidate
45 TRACONs and 4 en route centers stretching from Chicago to New England, New
York, and Philadelphia into 4 integrated facilities (see table 1). The plan, with an
initial estimated life-cycle cost of $2.3 billion, 4 calls for the four integrated facilities
to be built with operations transferred from the individual TRACONs by 2023. JRC
also allowed SPMO to move forward with a final investment analysis for the first
facility—the Liberty Integrated Control—which includes airspace over the New York,
New Jersey, and Philadelphia metropolitan areas.
FAA expects these integrated facilities will maximize operations and realize the
benefits of airspace redesign initiatives, eliminate artificial airspace boundaries caused
by the current air traffic facility network, and improve internal operations. It also
anticipates that the new buildings will reduce the number of facilities requiring new
equipment or upgrades, avoid the cost of maintaining aging facilities, and facilitate
NextGen capabilities.




4
    This estimate is adjusted for inflation, calculated over a 40-year life-cycle, and includes costs associated with the
    planning, construction, and equipage of the facilities. It does not include airspace redesign implementation, moving
    personnel via a permanent change of station, program management, and other indirect costs.

                                                                                                                       3
Table 1. Proposed Northeast Integrated Facilities
Proposed Integrated        Current Facilities and Airspace To Be Transferred
Facility

Liberty Integrated         • TRACONs within the New York Center’s airspace, including the New
Control Facility             York and Philadelphia TRACONs
                           • Airspace at or below 30,000 feet from the New York Center

Lincoln Integrated         • TRACONs within the Chicago Center’s airspace, including the Chicago
Control Facility             and Milwaukee TRACONs
                           • Airspace at or below 30,000 feet from the Chicago Center

Northeast Integrated • TRACONs within the Boston Center’s airspace
Control and High-Ops • Airspace at or below 30,000 feet from the Boston Center.
Facility
                     • The facility will be co-located with operations from the New York and
                       Boston Centers that control airspace at or above 31,000 feet, along with
                       oceanic operations.

Great Lakes                • TRACONs within the Cleveland Center’s airspace, including the
Integrated Control           Pittsburgh, Cleveland, and Detroit TRACONs
and High-Ops Facility      • Airspace at or below 30,000 feet from the Cleveland Center.
                           • The facility will be co-located with operations from the Chicago and
                             Cleveland Centers that control airspace at or above 31,000 feet.
Source: FAA
Note: The names of the facilities are notional and do not indicate where FAA plans to build these facilities.
Attachment 2 lists TRACONs and en route centers that could be transferred to each of the four integrated
facilities.

FAA’s Decisions Regarding the First Site Have Been Delayed
FAA has pushed its decision to approve construction for the first facility from
November 2012 to May 2013. This is primarily due to delays in selecting a site for the
facility and tight funding limits called for in its recently passed reauthorization. FAA
officials noted that the delay will affect FAA’s schedule for consolidating other
locations within the first segment, though the impact has not yet been determined.
FAA’s decision involves determining complex operational, logistical, and workforce
aspects of the consolidation, including the following:

  • the facility’s airspace boundaries and total operating positions
  • the size of the building
  • the total number of controllers, technicians, and other employees working at the
    facility
  • the automation and other equipment to be installed
  • transition schedules for existing facilities to move to the new building
  • workforce-related issues


                                                                                                           4
FAA officials stated that plans for future projects could change based on experiences
with the first locations. These adjustments may include changing the number and size
of integrated facilities built or constructing two buildings on one site to allow for
differences in operations.

FAA FACES KEY TECHNICAL, FINANCIAL, AND WORKFORCE
CHALLENGES IN EXECUTING ITS PLAN
Successfully implementing FAA’s plans for large-scale realignments and
consolidations—and avoiding future risks—will require the Agency to address a
number of challenges. These include aligning approved construction projects with its
consolidation plan; making key decisions related to automation platforms, airspace
redesign efforts, and other technical factors; finalizing project cost estimates and
funding sources; and addressing associated workforce and community issues.

Approved TRACON Construction Projects Have Not Been Aligned With
FAA’s Large-Scale Plan
While FAA’s large-scale plans prompted the Agency to halt all realignment and
consolidation activities except one small TRACON consolidation, 5 the Agency is
moving ahead with plans to maintain or replace some of its aging terminal facilities
and has not aligned some of these construction projects with its consolidation efforts.

FAA has cancelled plans for consolidating the West Palm Beach TRACON functions
into the Miami TRACON and has deferred previously approved TRACON
consolidations in Michigan, Ohio, and Illinois until further decisions are made. 6 FAA
also has no plans to consolidate any of its en route centers but will focus on sustaining
these facilities while it analyzes future consolidations.

However, FAA is moving ahead with plans to construct two new TRACONs in
Cleveland, OH, and Kalamazoo, MI, which were approved for construction before
FAA approved the large-scale plan. These new facilities overlap with the plans for the
Lincoln NE, and Great Lakes integrated facilities and may not be needed if FAA
decides to consolidate those TRACONs’ functions into larger, integrated facilities.

FAA officials are aware of the potential overlap and expect to make a decision on
whether to consolidate the two TRACONs into integrated facilities at a later date.
FAA also recently reorganized the SPMO and other Air Traffic Organization facility
planning groups under its Air Traffic Control Facilities Directorate. FAA expects this


5
    The Abilene, TX, TRACON functions could be transferred to the Dallas/Ft. Worth TRACON as early as this October but
    more likely sometime next year.
6
    The planned consolidations included combining the Cleveland, Youngstown, Mansfield, Toledo, Akron, and Toledo, OH,
    TRACON functions to a new TRACON in Cleveland; combining the Muskegon, Lansing, Grand Rapids, and Kalamazoo,
    MI, TRACON functions into a new TRACON in Kalamazoo; and transferring the Champaign, IL, TRACON functions to
    the Chicago TRACON.

                                                                                                                    5
reorganization will enable it to better coordinate its large-scale efforts with its other
facility construction and modernization efforts.

Technical Decisions for the First Integrated Facility Will Impact the
Current Modernization Plan
FAA’s modernization plans are based on the current facility set-up for en route
centers and TRACONs—not consolidated or integrated facilities. According to FAA,
the Agency is in the early stages of defining the technical requirements for an
integrated facility and making decisions about major acquisitions. These decisions
will impact the Agency’s future modernization plans and budgets, including NextGen
(see table 2). For example, the En Route Automation Modernization (ERAM)
program is currently being deployed to 20 en route centers, including locations in the
Northeast where the first integrated facilities could be built. However, FAA has not
made changes in its Capital Investment Plan, and the full extent of the changes will
not be known until FAA solidifies its plans for the integrated facilities.

Table 2. Key Modernization Programs Impacted by Large-Scale
Consolidations
Program                   Description                                                Estimated
                                                                                     Cost
ERAM                      Replace and significantly enhance existing hardware        $2.1 billion
                          and software at the 20 FAA Centers that manage high-
                          altitude air traffic. ERAM is FAA’s key platform for
                          NextGen to process flight data across the NAS.
Terminal Automation       Modernize or replace the displays and processors           Over $1 billion
Modernization and         controllers rely on to manage traffic in the vicinity of   from 2012 to
Replacement (TAMR)        airports at over 150 operational sites.                    2018
NAS Voice System          Control data and voice communications paths that           $120 million
(NVS)                     support both terminal and en route operations, along       from 2012 to
                          with new NextGen activities. FAA is planning to finalize   2016
                          NVS cost, schedule, and performance parameters by
                          August 2012.
Federal                   Route data for all of the NextGen programs and FAA         $2.4 billion
Telecommunication         initiatives. Without FTI, NVS will be unable to complete
Infrastructure (FTI)      its mission as a networked back-up voice
                          communications system.
Source: OIG analysis, based on FAA data

These decisions also require coordination among FAA’s various modernization
programs from a technical, cost, and schedule standpoint. FAA has begun
coordinating these efforts, which includes developing “Portfolio Level Agreements”
that define the roles, responsibilities, and critical interdependencies needed to support
the transition to integrated facilities, some of which have already been signed. This is
a key watch item for Congress given that the integrated facility plan will require cost
and schedule changes to several major acquisitions.
                                                                                                       6
FAA’s Initial Business Case Does Not Include Key Assumptions Needed
To Estimate Costs and Identify Funding Sources
FAA has not finalized the estimated costs to construct, staff, and maintain the first
four integrated facilities—a critical element of a long-term effort of this magnitude.
As shown in table 3, FAA’s initial business case estimated that it will spend
$1.8 billion from fiscal years 2011 through 2017 and a total of $5.3 billion to
construct and maintain the four Northeast facilities over a 40-year life cycle. 7

Table 3. Initial Cost Estimates for Planned Northeast Facilities
($ in Millions)
Type of Costs                                                Fiscal Years           Fiscal Year                   Total
                                                            2011 Through              2018 and
                                                                     2017              Beyond
Facility Construction and Equipment Costs                          $1,556.9               $751.2              $2,308.1
Airspace Redesign, Modernization,                                    $160.2             $2,424.2              $2,584.4
Sustainment, and Other Indirect Costs
Permanent Change of Station Costs                                      $35.8              $303.4                $339.1
Program PC&B Costs                                                     $29.8               $42.1                 $71.9
Total                                                              $1,782.7             $3,520.8              $5,303.5
Source: OIG, based on FAA data. Figures may not add up due to rounding.

However, FAA’s initial business case does not include key assumptions to fully
estimate the projected costs of integrated facilities. For example, the initial business
case is site neutral, assumes no reduction in controller staffing, and does not consider
the cost differences of different metropolitan areas when calculating projected costs.
FAA anticipates that a more detailed cost and benefit analysis for the first integrated
facility will be completed before the investment decision next May.

Another challenge is determining how to pay for the projects in a tight budget
environment. When the overall plan was approved last November, FAA estimated
that $2.3 billion was needed to construct and equip the first four integrated facilities. 8
However, with the funding limits called for in FAA’s reauthorization, FAA officials
indicated that it is considering alternative financing sources and other acquisition
strategies to pay for the projects. These include partnerships with local and other
government agencies, public-private partnerships, and using the proposed Federal
infrastructure bank.



7
    This estimate is adjusted for inflation and includes costs for building construction and equipment acquisition; airspace
    redesign implementation, facility modernization and sustainment, equipment refresh, and other indirect costs; movement
    of personnel via permanent change of station costs; and the personnel salary and benefit (PC&B) costs for Agency staff
    tasked with overseeing the four projects.
8
    In its fiscal year 2013 budget request, FAA is requesting $225 million for fiscal year 2012 and $95 million to plan and
    build the Liberty Integrated Control Facility.

                                                                                                                          7
The Impact of Large-Scale Realignments and Consolidations on FAA’s
Air Traffic Control Workforce Further Complicates FAA’s Plan
The success of FAA’s plans also depends on how it addresses significant workforce
issues. Large-scale realignments and consolidations will require the movement of
thousands of employees and their families. Facility consolidations will also require
FAA to collectively bargain with its unions. Several potentially contentious issues
will be subject to negotiation, such as pay, employee bidding, training, and moving
expenses. FAA will be further challenged to ensure that future agreements are cost
effective and do not present opportunities for waste or abuse. FAA is working closely
with its bargaining units to gain consensus regarding these issues, though formal
negotiations have yet to begin.

While national leadership of the National Air Traffic Controllers Association has
expressed support for the integrated facility concept, there may be opposition from
employees at local facilities. During our visits to the New York Center and New York
TRACON, FAA and union officials indicated that they would oppose plans to build
an integrated facility outside of Long Island. They stated that many employees would
be unlikely to move from the area due to their connections to the area and their
spouses’ jobs. In addition, FAA management from the New York TRACON estimates
that approximately 30 percent of its controller workforce is eligible to retire, and, if
forced to move to a facility outside of Long Island, many may opt to retire instead.

Addressing Economic and Infrastructure Impacts on Local Communities
Could Create Roadblocks
Realigning and consolidating air traffic facilities will likely have significant
economic, infrastructure, and lifestyle impacts on local communities gaining and
losing facilities as it involves moving potentially hundreds of employees across state
lines. These impacts would be similar to those seen during the Department of
Defense’s (DOD) Base Realignment and Closure (BRAC) Commission activities. A
2009 study contracted by DOD on the impact that BRAC activities had on local
communities in Maryland found that the changes increased demands on local
hospitals, police and fire services, and schools and called for plans to address
transportation concerns, such as increased traffic on local and state highways. 9

These impacts may create roadblocks to FAA’s consolidation and realignment efforts.
As FAA is aware with past consolidations, communities losing their facilities have
taken steps to delay or prevent the moves, often based on information obtained from
impacted employees and local officials. For example, during the Palm Springs to
Southern California TRACON consolidation in 2007, local communities expressed
concerns whether the Southern California TRACON had adequate staffing levels to

9
    “APG Regional Workforce Analysis: Chesapeake Security & Security Corridor,” New Economies Strategies and AKRF,
    Final Report, December 2009.

                                                                                                                8
accommodate an additional 220,000 air traffic operations that were being transferred.
These concerns led to the consolidation being delayed by 1 month as local
representatives raised these issues with FAA.

LEARNING FROM PAST EFFORTS AND ESTABLISHING METRICS
AND OVERSIGHT MECHANISMS WILL BETTER POSITION FAA
FOR SUCCESS
Some of FAA’s past facility consolidations did not produce expected cost savings and
operational benefits. As FAA’s current consolidation plan continues to evolve, FAA
can take a number of actions that could help it avoid previous pitfalls and better
position it for success over the long term. These include developing metrics for
measuring the success of its initial consolidations and providing Congress and other
stakeholders updated information regarding its efforts and the impacts on FAA’s other
modernization efforts.

Incorporating Past Lessons Into the Current Plan and Developing
Metrics Could Help FAA Mitigate Future Risks
FAA’s last major consolidation effort occurred in the 1990s, when the Agency built a
series of TRACONs in major metropolitan areas to consolidate and improve air traffic
operations. In 2004, FAA completed a study that compared projected costs, schedules,
and operational efficiencies of the Atlanta, Northern California, and Potomac
Consolidated TRACONs to actual results. 10 The study, along with our interviews with
facility personnel, showed that (1) the costs of these consolidations were higher than
originally estimated, (2) facility openings were delayed, and (3) operational
efficiencies were not achieved (see table 4).




10
     “Evaluation of Large Terminal Radar Approach Control Facilities Consolidation Benefits;” Report # 2003-23; Original
     Report Date December 31, 2003; Revised April 2004.

                                                                                                                      9
Table 4. Cost Increases, Schedule Delays, and Other Impacts of
Past Large-Scale Consolidation Efforts
Cost Increases                Schedule Delays               Other Impacts
Atlanta Consolidated TRACON
Operations and                9 months due to the           Operational efficiencies were not achieved because
maintenance costs were        unavailability of the         (1) controllers transferred from smaller facilities were
53 percent higher than        Standard Terminal             unable to certify at the consolidated facility and (2) a
estimated, mostly due to      Automation Replacement        decision to change the configuration of a proposed
negotiated controller pay     System (STARS)                runway at Atlanta Hartsfield Airport delayed the
increases.                                                  runway’s completion and invalidated user benefit
                                                            assumptions made during the original cost-benefit
                                                            analysis.
Northern California Consolidated TRACON
Construction costs were       22 months due to the          Due to the delay in opening the TRACON,
45 percent higher than        unavailability of STARS       controllers received negotiated pay increases well
originally estimated. ATC     and two budget cuts           before actually transferring to the new site and
staffing costs were           during project                caused FAA to incur close to $400,000 in reverse
28 percent higher due to      construction.                 commute costs for six controllers who transferred to
controller pay increases.                                   the new TRACON early and had to commute back to
                                                            their old facility to work.
Potomac TRACON (Baltimore-Washington DC)
Construction and equipage     7 months due to the           While the consolidation improved operational
costs were 46 percent         inclusion of the Richmond     coordination within the facility, it did not result in
higher than estimated due     TRACON, requiring an          extensive airspace redesign, staff reductions, or
to the subsequent inclusion   increase to the size of the   equalized work between operating sectors. Facility
of the Richmond TRACON        building, and the             management noted a loss of about 25 percent of the
into the new facility and a   unavailability of STARS.      originally anticipated user benefits. The
change in automation                                        consolidation also resulted in controllers monitoring
systems. Staffing costs                                     the Richmond-area airspace, a slower and less
were 24 percent above                                       complex sector, earning the same pay as controllers
budget.                                                     monitoring busier, more complex airspace.
Source: FAA

Incorporating lessons from its previous efforts in the current consolidation plan would
help FAA achieve a successful outcome—especially since it is facing similar
challenges. For example, decisions regarding what automation or equipment will be
installed or how ongoing modernization projects will be affected could delay
construction of the first integrated site; this occurred at the Northern California
Consolidated TRACON due to the unavailability of an automation system.

Developing metrics that measure whether expected operational efficiencies and
potential cost savings from the first integrated facility are actually achieved could
further help FAA mitigate future risks. Considering that FAA’s large-scale plans span
a period of 20 years in six segments, measuring the success of early realignments and
consolidations will be critical to determine whether the Agency needs to modify plans
and expectations for future efforts.




                                                                                                                  10
Informing Stakeholders of Cost and Schedule Changes and Risks Would
Further Position FAA for Success
As key partners in the Nation’s air traffic facility realignment and consolidation, it is
critical that FAA provide Congress and other stakeholders with timely, detailed
information regarding plans and plan changes, the risks associated with individual
sites and the overall plan, and the impact that large-scale realignment and
consolidations will have on FAA’s other modernization efforts. Such information will
allow Congress and the aviation community to determine whether FAA’s efforts are
on track or if changes to the plan are needed—particularly while FAA is still early in
its planning.

Some key watch items for this Subcommittee in the near term are (1) FAA’s decision
on where to build the first integrated facility, (2) final cost estimates for the first
facility, (3) FAA’s metrics for measuring the success of its first facility, and (4) the
impact that FAA’s large-scale plans will have on its other modernization efforts.

CONCLUSION
FAA’s efforts to modernize the NAS are critical for meeting the anticipated demand
for air travel. The extent to which FAA realigns and consolidates the Nation’s air
traffic control facilities will be an important and complex component of these efforts.
FAA’s plans for large-scale integrated facilities represent significant steps on the path
to achieving greater operational efficiencies. However, successfully implementing this
plan will require the Agency to address significant challenges and make difficult
decisions regarding the cost, schedule, and technical capabilities required for the
effort. As FAA’s plan evolves, addressing these issues early, including learning from
prior consolidation efforts, will better position the Agency to achieve airspace and
operational efficiencies, potential cost savings, and the benefits from NextGen.
This concludes my statement. I would be happy to address any questions from the
Chairman or Members of the Subcommittee at this time.




                                                                                      11
ATTACHMENT 1. FAA’S SIX AIRSPACE SEGMENTS FOR
REALIGNING AND CONSOLIDATING AIR TRAFFIC FACILITIES




                                                               1
                        6


       3
                                                           2




                                        5                      4




Source: SPMO

Segment 1: Chicago through New England, New York, and Philadelphia
Segment 2: Baltimore/Washington, DC to Atlanta and St. Louis
Segment 3: West Coast from California and Oregon to the Arizona Border
Segment 4: Southern Atlantic Region Including the Eastern Carolinas, Georgia
           (South of Atlanta) Through Florida
Segment 5: Gulf Coast Including Louisiana and Texas, Extending Through
           Arkansas
Segment 6: Midwest and Rocky Mountains Extending through Washington
           State




                                                                          12
ATTACHMENT 2. PLANNED SEGMENT 1 INTEGRATED FACILITIES

Component Facilities                        Radar         ATC      Certified Technicians   Other     Total
                                         Positions   Positions   Controllers                Staff    FTEs
Liberty Integrated Control Facility
New York En Route Center (partial);            86        169           625          156      57      838
New York, Philadelphia, Allentown,
Wilkes-Barre, Binghamton, Elmira,
Harrisburg, and Reading TRACONs
Lincoln Integrated Control Facility
Chicago En Route Center (partial);             99        174           730          208      42      980
Chicago, Milwaukee, Kalamazoo, Fort
Wayne, Grand Rapids, Muskegon,
South Bend, Waterloo, Cedar Rapids,
Champaign, Quad City, Madison,
Peoria, and Rockford TRACONs
Great Lakes Integrated Control and High Ops Facility
Cleveland and Chicago En Route               123         241           920          224     139     1,283
Centers (partial); Detroit, Cleveland,
Flint, Lansing, Saginaw, Mansfield,
Toledo, Buffalo, Akron-Canton,
Clarksburg, Erie, Pittsburgh,
Rochester, and Youngstown
TRACONs
Northeast Integrated Control and High Ops Facility
Boston and New York En Route                    88        201         716        244         67 1,027
Centers (partial); Boston, Albany,
Cape, Yankee, Bangor, Burlington,
Providence, Portland, and Syracuse
TRACONs
Source: FAA
Note: The names of the facilities are notional and do not indicate where FAA plans to build these
facilities.




                                                                                                      13
